No. 21-194
IN THE

Supreme Court of the United States
CALIFORNIA TRUCKING ASSOCIATION, INC.;
RAVINDER SINGH; AND THOMAS ODOM,
Petitioners,
v.
ROBERT BONTA, IN HIS OFFICIAL CAPACITY AS THE
ATTORNEY GENERAL OF THE STATE OF CALIFORNIA,
ET AL.,
Respondents.

CERTIFICATE OF COMPLIANCE

I hereby certify that I am a member in good standing of the bar of this Court and
that the Brief for the Chamber of Commerce of the United States of America as Amicus
Curiae in Support of Petitioners contains 5,977 words and complies with the word
limitation established by Rule 33.1(g)(x) of the Rules of this Court.
Dated: September 10, 2021

/s/ Theane Evangelis
Theane Evangelis

